LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

April 15, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

TODD C. BANK V. AL JOHNSON’S SWEDISH RESTAURANT & BUTIK, INC.

Dear Sir or Madam:
I hereby certify that at the request of counsel for the Petitioner, on April 15,
2020, I caused service to be made pursuant to Rule 29 on the following counsel for the
Respondent:
RESPONDENT:
Katrina G. Hull, Esq.
Markery Law LLC
1200 G St, N.W., Suite 800
Washington, D.C. 20005
(202) 888-2047
katrinahull@markerylaw.com
This service was effected by depositing three copies of a Petition for a Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 15th day of April 2020.

